STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

May 12, 2021

Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Mike Brown, Acting Warden v. Ervine Davenport
United States Supreme Court No. 20-826

Dear Mr. Harris:
I am counsel of record for Petitioner in the above-captioned matter. Pursuant
to Supreme Court Rule 37.3, I consent to the timely filing of any amicus curiae
briefs in this case without the need for individual written consent and regardless of
the side supported.
Sincerely,

Fadwa A. Hammoud
Solicitor General
517-335-7628

FAH:hlg
Enclosure (Proof of Service)
cc:
Tasha Joy Bahal, Respondent’s counsel

